Mo.

2i-irs

3fn tlje Supreme Court of tfje Urntetr States;
John M. Custin,
Petitioner
v.
Harold J. Wirths, NJ Commissioner of Labor,
Hilda S. Solis, Secretary of Labor,
Jane Oates, USDOL ETA Secretary,
Seth Harris, Acting Secretary of Labor,
Joseph. Sieber, NJDOL Board of Review,
Gerald Yarbrough, NJDOL Board of Review,
Jerald L. Maddow, NJDOL Board of Review,
Respondents.

/
/

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
/

Petition For A Writ of Certiorari

John M. Custin
Pro Se, Petitioner
P.O. Box 5631
Christiansted, VI 00823
(340)201-3318
jocustl00@yahoo.com

Supreme Court, U.S.
FILED

Jbl 2 3 2Q2i
OFFICE OF THE Cl FRR-

QUESTIONS PRESENTED FOR REVIEW
As was the situation for Josef K in Kafka’s The Trial NJDOL's Appeals Tribunal proceedings
are Inquisitorial - typical of the type of proceedings employed by autocratic governments.
Actions against claimants are commenced by an accusation - the identity of the entity
originating the accusation, its pleadings, and its secret documents faxed to the Tribunal are
customarily withheld from a claimant’s discovery.
Petitioner received a Notice in the mail from NJDOL shortly after filing his claim for UI
benefits on April 26th 2010 accusing him of “misconduct connected to the work” without
specifying the entity leveling it. Just as was the situation with Josef K Petitioner learned that
the charge of “misconduct connected to the work” of unknown origin has unconstitutional
“stickiness” attached to it: it survives initial claims hearings even when the charge is dismissed
and often follows a claimant around for years and requires a Tribunal agent to physically
remove it from your case file. The penalty imposed has a Draconian effect and the initial
“refund” can cause a loss of the ability to pay the premiums on COBRA health insurances and
disqualifies you from future UI claims such as EB and training programs (ABT). Just as was
the case with the character Josef K in Kafka’s “The Trial” Petitioner was forbidden from
learning the identity of the unknown accuser. When Petitioner tried to discover the source of
the accusation [ Interrogatories 1-6 App. infra 126a- 127a ]. Admissions Requests #20 - #22
App. infra 148a ] he was told by the Respondents that they had “already produced” that
information to him - when indeed they had not. When Petitioner appealed to the Magistrate
Judge that the Respondents’ attorney had not produced the requested information as to what

-1 -

r.

entity or person originated the accusation against him Petitioner was told by the Magistrate
that his request is “moot” because the Respondents’ attorney “is an officer of the court” - and
of course - officers of the court do not lie. An initial hearing was held on the charge of
unknown origin and was dismissed because the employer “had no answer to our detailed
questions” about the misconduct charge and benefits granted - but this information was
withheld from Petitioner. Relieved and believing it all must have been a mistake - Petitioner
- just like “K” - soon learned his acquittal was only an “ostensible acquittal” and several
weeks weeks later Petitioner received another Notice in the mail notifying him that not only
was Petitioner fired for misconduct -but that Petitioner also quit voluntarily having
“abandoned his job”. Unbeknownst to Petitioner his employer had sent a protest letter to the
Tribunal requesting an appeal because Petitioner was the moving party in the separation
having “abandoned his job” not showing up for work some 21 days after the employer had
told Petitioner not to report for work anymore. Another hearing was held and secret
documents including the employer’s attendance record for Petitioner were sent to the
Tribunal without Petitioner’s knowledge. At the Tribunal hearing Petitioner’s employer
testified from the secret documents and a secret “call-out sheet” that the employer “just
printed out” in the middle of the telephone proceedings. The Inquisitor then proceeded to
drill Petitioner to get him to attest to the information the employer had just testified to based
on the secret documents. A guilty decision that Petitioner had been fired for misconduct was
rendered based on the information in the secret call-out sheet and secret attendance record
that Petitioner was fired for misconduct. Just as was the case with Josef K Petitioner was not

-11 -

made aware of his accuser’s pleadings until after a conviction has been reached by the
Tribunal:
“The employer contends that the claimant voluntarily left the job
without good cause attributable to the work. There were no other
issues disputed by the appellant employer” [ App. infra 102a ]
If there were “no other issues disputed by the Appellant employer” Wal-Mart other than
“voluntary leaving” then that should have been the only issue that printed on the 6/17/2010
“Notice of A Telephone Hearing” and that should have been the only issue before the
Tribunal.
In regard to Petitioner’s First UI claim then the questions presented are:
1. Does it violate constitutional due process when a worker is dispossessed by the state of
a property right to unemployment benefits on a charge of “misconduct connected to the
work” when the only issue the employer contended was “voluntary leaving” and “there
were no other issues disputed by the Appellant employer?
2) Is a “stacked” “Notice of Appeal of a Telephone Hearing” [ which sets the issues to be
raised for the employer’s appeal hearing ] that lists all the possible reasons for separation
from the employer - i.e.- that the claimant both voluntarily quit and was fired for
misconduct - in substance the same as the generic notice provided to Plaintiff Shaw ("all
relevant issues shall be considered and passed upon") - and therefore the Notice
Petitioner received from NJDOL state actors was also in substance “no notice at all” [ as
per the holding of the Tenth Circuit court in Shaw v Valdez: "Clearly, the generic notice
provided Shaw was, in substance, no notice at all” [ quoting Adams v. Harris, 643 F.2d
995, 1000 (4th Cir. 1981) (Winter, J., dissenting).
- ill -

"[Constitutional due process requires notice that gives the [IDES's]
reasons for its action in enough detail that a recipient can prepare a
Responsive defense."[ Tripp v. Coler, 640 F. Supp. 848, 857
(N.D.I11. 1986) (citing Goldberg v. Kelly, 397 U.S. 254, 267-68, 90
S.Ct. 1011, 1020-21, 25 L.Ed.2d 287 (1970); Vargas v. Trainor, 508
F.2d 485, 489 (7th Cir. 1974), cert, denied, 420 U.S. 1008, 95 S.Ct.
1454, 43 L.Ed.2d 767 (1975)). ]
This court has held:
“the notice must be both timely and adequate, given within a reasonable
time prior to the taking of any action, and specifying the proposed action
and the grounds therefore, indicating the information needed to determine
eligibility, and advising the recipient of the right to be heard and to be
represented by counsel. Moreover, there must be full and complete
disclosure of the information upon which the proposed action is based."
at page 856. [Emphasis added.] [ Pregent v. New Hampshire Dept, of
Employment Security, 361 F. Supp.782 (1973), vacated 417 U.S. 903,
94 S.Ct. 2595, 41 L.Ed.2d 207 (1974) quoting Caldwell v. Laupheimer,
311 F. Supp. 853 (E.D.Pa. 1969) ]
2) Is preparation of a responsive defense compromised in cases where the state employment
agency engages in an unconstitutional practice of withholding the employer’s protest letter
from the discovery of the claimant so that the claimant is left completely unaware at the
appeal hearing as to what purported facts in regard to the reason for the claimant’s separation
have already been pleaded by the employer so that the claimant will not be able to detect that
state employment agency has “stacked” the Notice against him with issues that are not the
employer’s “appealed issue” [as defined in Shaw ] and/or the employer testifies to new nonpleaded facts at the appeal hearing from a secret documents not properly introduced that are
contrary to those made in the protest letter and the claimant is then drilled by the Examiner as
to those newly pleaded facts by the Examiner not knowing that he is being secretly set up to
admit to new facts contrary to what has already pleaded by the employer and helping the
opposing party re-plead its case in the middle of the appeal hearing?
- in -

In regard to Petitioner’s Second, Third and Fourth UI claims the Question Presented Is:
3. Does it violate the due process provision of the Fourteenth Amendment and is an immediate
federal question raised when state actors in three separate instances [ constituting an
unconstitutional practice ] fail to reference any state law that says remuneration received as a
result of a Lawsuit Against Discrimination cannot be used to establish a monetary UI
entitlement because those settlement funds “does not constitute wages” and therefore
Petitioner did not need to seek a state remedy before seeking a federal remedy under 42 U.S.C.
1983, since these remedies are supplemental and therefore the Opinions below erred in holding
that Petitioner did not first exhaust all state remedies before seeking relief in the New Jersey
District Court?

In regard to the requested review on appeal of Petitioner’s Rule 52 Objection To Magistrate:
4. Does a Magistrate Judge abuse his discretion when he issues a clearly erroneous order that a
Plaintiff’s entire set of party discovery [ Interrogatories, Admission Requests, Production
Requests ) under FRCP can be “mooted” upon the utterly nonsensical certification of
opposing counsel that Respondents “already produced” the answers to the Interrogatories and
Admissions Requests (which are not document requests ) in response to a Rule 45 document
subpoena and six months earlier?

- IV -

List of Parties To The Proceeding
Petitioner John M. Custin was the Plaintiff in the District Court of New Jersey and the
Appellant in the appeal to the Third Circuit Court of Appeals. Respondents Harold J. Wirths,
Joseph Sieber, Gerald Yarbrough, Jerald Maddow, were the state Defendants in the District
Court of New Jersey and the state Appellees in the Third Circuit Court of Appeals. Hilda
Solis, Jane Oates, Seth D. Harris were the federal Defendants in the District Court of New
Jersey and the federal Appellees in the the Third Circuit Court of Appeals.
Corporate Disclosure Statement
There are no parent corporations or publicly held companies in this case. Petitioner was
a claimant for UI benefits with the New Jersey Department of Labor. That state agency’s
Appeals Tribunals and Board of Review heard his appeals. Respondents/Appellees are state
actors acting in their official capacity as employees of the New Jersey Department of Labor.
The Federal Respondents/Appellees are federal officials responsible for overseeing state
conformity with the fair hearing requirement of the Social Security Act.

-v-

Table of Contents
Questions Presented

Pages i- iv

Parties to Proceeding

Page v

Corporate Disclosure

Page v

Table of Contents

Pages v-vii

Table of Authorities

Pages viii-xi

Citations of Opinions

Page 1

Basis of Jurisdiction

Page 1

Constitutional and statutory provisions

Pages 1-2

Federal Administrative Law Provisions

Pages 2-3

Statement of Case

Pages 3-11

A. Factual Background

Pages 3-9

B. Procedural Background

Pages 9-11

Reasons for Granting

Pages 11-31

A. THE STANDARD OF REVIEW FOR CONSTITUTIONAL DUE
PROCESS EMPLOYED IN THE HOLDINGS BELOW CANNOT
BE SQUARED WITH THE TENTH CIRCUIT’S HOLDING IN
Shaw v. Valdez

Pages 11-14

B. THE OPINIONS BELOW CIRCUMVENT AND CONFLICT WITH
THIS COURT’S PRECEDENTS

Pages 14-21

1. In regard to the First and Second Questions Presented

Pages 14-16

2. In regard to the Third Question Presented

Pages 16-19

3. In regard to the Fourth Question Presented

Pages 19-21

- vi-

C. THE OPINION BELOW CONFLICTS WITH OTHER COURTS OF
LAW

Page 21

D. THE OPINIONS BELOW FAILED TO ENFORCE THE LAW AND
EXCUSED IT

Pages 21-22

E. THE OPINION BELOW IS CLEARLY FACTUALLY WRONG ON
THE ISSUE RAISED IN THE FIRST QUESTION PRESENTED

Pages 22-24

F. PROOF THAT RESPONDENTS’ ATTORNEY MADE A
MISREPRESENTATION TO A COURT OF LAW THAT
THE COURT RELIED ON THAT RESULTED IN SUBSTANTIAL
PREJUDICE TO PRO SE PETITIONER’S CASE

Pages 24-25

G. THE REQUESTED 12/14/2017 DISCOVERY WAS ESSENTIAL TO
PETITIONER’S CASE

Pages 25

H. THE THIRD CIRCUIT OPINION BELOW RELIES ON THE
RESPONDENTS’ BIG LIE AND IT CONFLICTS WITH THE
DISTRICT COURT ON RESPONDENTS’ KEY MATERIAL FACT
ABOUT THE HR MANAGER’S TESTIMONY

Pages 26-28

I. THE OPINIONS BELOW DO NOT RENDER THE REQUIRED
JUDICIAL DEFERENCE TO FEDERAL ADMINISTRATIVE LAW
IN A CASE ABOUT A FEDERALLY SPONSORED PROGRAM

Pages 28-30

J. THE OPINIONS BELOW DID NOT DISPOSE OF ALL THE
ISSUES RAISED ON APPEAL

Page 30

K. THE QUESTIONS PRESENTED ARE IMPORTANT
- Vll -

Pages 30-31

CONCLUSION

Page 32
APPENDICES

Appendix A Third Circuit Summary Order
Appendix B Third Circuit Opinion

Pages la - 3a
Pages 4a - 14a

Appendix C N.J. District Court Opinions

Pages. 15a - 36a

Appendix D Magistrate and District Court Discovery Opinions

Pages 68a - 84a

Appendix E Miscellaneous Supporting Documents..................

Pages 85a - 157a

- vm -

Table of Authorities
Cases
Adams v. Harris, 643 F.2d 995,1000 (4th Cirl981) (Winter, J., dissenting)
Armstrongs Manzo, 380 U.S. 545, 552, 85 S.Ct. 1187, 1191,
14 L.Ed.2d 62(1965)

passim

Berlanti v. Bodman, 780 F.2d 296, 301 (3d Cir. 1985)

.passim

Boddie v. Connecticut, 401 U.S. 371, 91 S.Ct. 780, 786 28 L.Ed.2d 113 (1971)

.passim

British Caledonian Airways, Ltd. v. C.A.B., 584 F.2d 982 (D.C. Cir. 1978)
Cabais v. Egger, 690 F.2d 234 (D.C. Cir. 1982

28,29
.passim

Caldwell v. Laupheimer, 311 F. Supp. 853 (E.D.Pa. 1969)

14

Camacho v. Bowling, 562 F. Supp. 1012,1024 (N.D.I11. 1983)

21

Carmona v. Sheffield, 475 F.2d 738, 739 (9th Cir.1973)

.passim

Cf. Wilkinson v. Abrams, 627 F.2d 650, 664 (3d Cir. 1980)

.passim

Chevron U.S.A. Inc.v. Natural Resources Defense Council, Inc.,
467 U.S. 837, 844, reh. den, 468 U.S. 1227 (1994)

29

Chobert v. Commonwealth Unemployment Compensation Board ofReview,
484 A.2d 223 (Pa. Commw. Ct. 1984)

.passim

Cleveland Bd. OfEduc. v. Loudermill, 470 U.S. 532,546 (1985)

.passim

Cosby v. Ward, 843 F.2d 967 (7th Cir. 1988)

21

Fergurson v. Thomas 430 F.2d 852, 856 ( 5th Cir. 1970)

.passim

Gibson Wine Co., Inc. v. Snyder et. al., 194 F.2d 329 ( D.C. Cir. 1952 )

.passim

- IX -

Table of Authorities
Cases
FTC v. National Lead Co., 352 U.S. 419, 427, 77 S.Ct.
502,508, 1 L.Ed.2d 438 (1957)

.passim.

Goldberg v. Kelly, 397 U.S. 254, 267-68, *969 90S.Ct. 1011, 1020-21,
25 L.Ed.2d 287(1970)

.passim

Gray Panthers v. Schweiker, 652 F.2d 146, 168 (D.C. Cir. 1980)

.passim

Hafer v. Merlo 502 U.S 21 ( 1991)

19, 20,21

Hess & Clark, Division ofRhodia, Inc. v. Food and Drug Administration,
495F.2d 975, 983 (D.C. Cir. 1974)

.passim

Hicks v. Feeney, 770 F.2d 375 (3d Cir. 1985)

.passim

Hudson v. Palmer,

U.S. at

, 104 S.Ct. 3194, 3203,

82 L.Ed.2d 393 (1984)

.passim

lliadis v. Wal-Mart Stores, Inc., 922A.2d 710 (2007)

.passim

In re Gault et al, 387 U.S. 1 (1967 )

.passim

In re: N.J.A.C. 12:17-2.1, Superior Court of New Jersey Appellate
Division Docket No. A-4636 -14T3 Decided May 1, 2017

.passim

In re Ruffalo, 390 U.S. 544, 550-51, 88 S.Ct. 1222,1225-26,
20 L.Ed.2d 117 983*983 (1968)

.passim

John M. Custin v. N.J. Department of Labor et. al., MER-L-2155-15

.passim

Marshall v. Jericho, 446 U.S. 238,242 (1980)

.passim

Martin v. OSHRC, 111 S.Ct. 1171, 1179 (1991)

29

Mathews v. Eldridge, 424 U.S. 319,332

19
-x-

Table of Authorities ( Continued )
Cases
McNeesev. Board ofEducation, 373 U.S. 66 (1963)

18

Monell v. Department ofSocial Services, 436 U.S. 658, 690-91, 98
S.Ct. 2018, 2035-36, 56 L.Ed.2d 611 (1978)

.passim

Monroe v. Pape, 365 U.S. 167, 81 S.Ct. 473, 5 L.Ed.2d 492 (1961)

18

Morgan v. United States, 304 U.S. 1, 18, 58 S.Ct. 773, 776, 82
L.Ed. 1129(1938)

.passim

Mullane v. Central Hanover Tr. Co., 339 U.S. 306 (1950)

.passim

Nevato v. Sletten 560 F.2d 340 (1977)

21

Patsy v. Board ofRegents, 457 U.S. 496 (1982)

18

Pregentv. New Hampshire Dept, ofEmployment Security, 361 F. Supp. 782
(1973), vacated 417 U.S. 903, 94 S.Ct. 2595, 41 L.Ed.2d 207 (1974)

14

Richardson v. Perales, 402 U.S. 389 (1971)

27

Ryan v. Brown, 653 A. 2d 1188 - NJ: Appellate Div. 1995

.passim

Sang-Hoon Kim v. Monmouth College, 320 NJ. Super. 157,160
8, 18, 19

(Law Div. 1998)
Scheuer v. Rhodes, 416 U.S. 232 (1974)

19

Shaw v. Valdez, 819 F.2d 965 (10th Cir. 1987)

12, 13, 19

Silver v. Board ofReview, 430 N.J. Super. 44 (App. Div. 2013)

.passim

Webster v. City ofHouston, 689 F.2d 1220, 1227 (5th Cir. 1982)

.passim

Wolf-Lillie v. Sonquist, 699 F.2d 864, 870 (7th Cir. 1983)

.passim

- xi -

Table of Authorities (continued!
Constitutional Provisions
Pages 3, 17, 18, 22

US Constitution, 14th Amendment
Federal Statutes

42 U.S.C. § 503 (a)(1)

10,21

42 U.S.C.§ 503 (a)(3)

10,21

Federal Administrative Law
.2, 6, 22, 27, 29

UIPL 10-96

^xn^.

Citations of Opinions
1. District Court of NJ; Case #12cv910 Rule 52 Objection [ unpublished ] App. infra 73a-76a
2. District Court of NJ; Case #12cv910 Summary Judgment [ unpublished ] App. infra 14a-34a
3. Third Circuit Court of Appeals; Case #20-1837 Opinion [ unpublished ] App. infra 3a-13a
Statement of the Basis for the Jurisdiction
The Judgment of the Court of Appeals for the Third Circuit was entered on March 4, 2021.
This Court’s jurisdiction rests on 28U.S.C. § 1254(1)
Constitutional Provisions and Statutes
Constitutional Provisions
US Constitution, 14th Amendment

Federal Statutes:
Section 42 of the United States Code Sec. 503(a)(3) provides:
“The Secretary of Labor shall make no certification for payment to any
State unless he finds that the law of such State, approved by the
Secretary of Labor under the Federal Unemployment Tax Act
[26 U.S.C. 3301 et seq.], includes provision for—
(3) Opportunity for a fair hearing, before an impartial tribunal, for
all individuals whose claims for unemployment compensation are
denied”
State statutes:
N.J.A.C. l:12-14.6(d) provides:
“(d) any party that intends to offer documentary or physical evidence
at the telephone hearing shall submit a copy of that evidence to
the Board of Review or appeal tribunal and all other interested
parties immediately upon receipt of notice of the scheduled telephone
hearing. Also, the requesting party shall provide timely notice of this
request to offer evidence to all other interested parties.
- T=

1. Any evidence not submitted as required in this subsection may be
admitted at the discretion of the Board of Review or the appeal
tribunal provided that such evidence is submitted to the Board of
Review or appeal tribunal and all other parties within 24 hours
of the telephone hearing.”
2. The other parties shall have 24 hours from the time of receipt of
the evidence to properly respond to its admission and use.”
Federal Administative Law:
USDOL ETA UIPL 10-96 “ET Handbook 382, Second Edition,
“Handbook For Measuring Unemployment Insurance Lower Authority
Appeals Quality”, page 13 provides:
“Telephone exhibits will be sent to each of the parties prior to the hearing
and, if a party not have all the documents does marked as exhibits, the
matter may be continued to allow the opportunity to review and object.”
“The record should reflect that the parties had an opportunity to review
the exhibits prior to their being received into evidence. The hearing
officer may state ‘I have allowed the parties to read and review the
documents that I have marked for exhibits’ or ask the question of the
parties, ‘Mr. Claimant, have you had the opportunity to read the letter
I marked as Exhibit 1?’ The record must affirmatively show the parties
were given the opportunity to examine the document. The exhibit should
be clearly marked with the exhibit number or identification. It should be
received if competent and relevant if there are no objections, or after the
objections have been ruled on.”
“it is important to realize that the hearing officer cannot consider
in his/her decision making process any document that was not
properly entered”
page 42 provides:
“only evidence that is properly entered into the record and that
which is officially/administratively noticed can be considered
as a basis for the findings of fact.”
-2-

“the findings of fact must be supported by substantial
evidence in the hearing record.”
STATEMENT OF THE CASE
A. Factual Background
This lawsuit is about the unconstitutional practices of NJDOL state actors who took
an oath to “support the constitution” but permitted routine violations of state and
federal agency laws and directives that were specifically enacted/promulgated to
insure due process and state conformity to the the “fair hearing” requirement of the
Social Security Act. Petitioner asks himself some eleven years after the fact and in
litigating the same question presented here as Petitioner’s first question: how it can
be that despite a right to due process of law and a right to a fair hearing under both
the Fourteenth Amendment and a federal statute - that a worker can lose his health
insurance on a charge that the employer never pleaded. Petitioner still does not
know the identity of his accuser and other may also not know. It is the central
assertion of this appeal that due process required that Petitioner have had a hearing
based on the allegations in the 5/24/2010 protest letter and issue switching
forbidden.
First Claim for UI benefits
The most damaging offenses occurred on Petitioner’s first claim for benefits dated
4/25/2010. An initial claims hearing was conducted on 5/10/2010 — specifically to
hear the charge of unknown origin that Petitioner received several weeks earlier that
“You may have been separated for misconduct connected to the work”. The initial
-3-

claims examiner wrote in her notes that despite her giving Wal-Mart several
opportunities and a furlough for time to respond to the misconduct charge — WalMart “had no reply to our detailed questions” about the misconduct charge [ App.
infra 85a ]. Petitioner received a notice that he had been awarded UI benefits but the
initial claims examiner’s notes as to Wal-Mart’s failure to respond to the misconduct
charge were withheld from Petitioner’s discovery. A few weeks later Petitioner
received a “Notice of Appeal To The Appeals Tribunal” informing him that an appeal
had been filed challenging the initial claims examiner’s decision. On June 7th 2010
Petition sent an e mail protesting the rehearing of the“misconduct connected to the
work” charge [App. infra 86a ]. Petitioner received no answer. Eleven days after that
Petitioner received a “Notice of A Telephone Hearing” that set a date for a telephone
hearing of 6/28/2010 and contained not only the ’’misconduct connected to the work”
charge of unknown origin that had been dismissed at the initial claims hearing - but a
new charge of “voluntary leaving”.
Unbeknownst to Petitioner on 5/24/2010 Wal-Mart sent a protest letter requesting the
appeal to the Trenton Appeals Tribunal with the Kafkaesque contention that
Petitioner “was the moving party in the separation” and that he “abandoned his job”
not showing up for work some 21 days after Petitioner had been terminated by his
first line supervisor Rebecca Timco on April 26th 2010 [App. infra 93a]. A reasonable
NJDOL state actor would have rejected the appeal request on its face as the
allegations it contains are utterly absurd. Unbeknownst to Petitioner the protest letter
also identified its witness with “first-hand” knowledge — Rebecca Timco - who
-4-

[ presumably ] would testify at the 6/28/2010 appeals hearing on behalf of the
employer that Petitioner simply walked off the job. At the appeal hearing the
Examiner asked the HR Manager “where’s Becky?” to which the HR Manager
responded: “She’s off today”. Since Petitioner was never sent a copy of the protest
letter he was caught totally unaware at the appeal hearing that the HR Manager was
testifying instead of Timco. If Petitioner had a hearing based on the employer’s
pleadings in the 5/24/2010 protest letter and had he been given a copy before the
hearing to prepare a defense and issue switching disallowed he could have challenged
the HR Manager’s claim to have “first-hand knowledge” and could have objected to
the HR Manager testifying instead of Timco and demand that Timco testify as a
witness so that he could pierce the pleadings by cross examining Timco about
Petitioner’s termination. Instead Petitioner confronted nothing but hearsay from the
HR Manager as she testified that Petitioner never spoke at all to Timco because “I’m
sure that she didn’t call him” and denied Timco ever fired Petitioner. The HR Manager
also claimed the only contact the store had with Petitioner was when she purportedly
called Petitioner’s mother on 4/23/2010 and that Petitioner’s mother handed Petitioner
the phone on a day Petitioner testified that he was not home. The HR Manager
claimed Petitioner had never called out and that the store was completely unaware of
his illness until the HR Manager called Petitioner’s residence on the 4/23/2010 and
had a conversation with me as to why I never reported for work. Attached to the
protest letter were an “attendance record” and an “exit interview” document. Again
unbeknownst to Petitioner - Wal-Mart had sent a fax on June 25th 2010 directly to the
5-

assigned NJDOL hearing examiner attaching again the attendance record and the exit
interview documents with the explicit statement that “Attached are documents
employer Wal-Mart would like to use as exhibits for the hearing on John Custin.”
[ App. infra 100a]. Petitioner was never sent a copy before the hearing as required by
a state statute ( N.J.A.C. 1:12-14.6(d)(1)) and a federal agency directive ( UIPL 1096 ). Those documents were necessary to an adequate defense to impeach the HR
Manager’s testimony that Petitioner had never called out and that the store was
unaware of Petitioner’s illness until 4/23/2010. One of these secret documents — WalMart’s “attendance record” showed that prior to the “five days” that Wal-Mart’s phone
system was not functioning Petitioner successfully called the store on 4/11/2010,
4/13/2010, 4/15/2010. [App. infra 97a], The reason codes are set to “50” instead of
“52” which is the code for “no call...no show”. There was no reason Petitioner would
not have continued to call out unless there was a problem with the phone system. The
“exit interview” document showed that the Wal-Mart store changed Petitioner’s Last
Day Worked ( “LDW”) from 4/11/2010 [ App. infra 85a ] to 4/16/2010 [ App. infra
95a ]. Wal-Mart switched the LDW to the day just before the “five days” to cover up
the fact that Petitioner had been calling out prior to the “five days”. The HR Manager
further testified from another secret document — a secret ”call-out list” that she “just
printed out” in the middle of a telephone hearing that became the Examiner
erroneously interpreted and made the basis for her decision:
“the employer contended that other employees called the hotline
the days the claimant was absent without an issue and no
problems were reported about the hotline” [ App. infra 104a ]
~6 -—

That is a direct reference to the testimony of the HR Manager testifying from the
secret “call-out list”. The statement is a misrepresentation of what had been testified
to because the HR Manger testified about one day she referenced as “that day”
without specifying the exact day she was referring to.
All of the documents Petitioner needed to prepare a responsive defense were withheld
by NJDOL state actors and Wal-Mart from his discovery: 1) the employer’s 5/10/2010
protest letter containing the employer’s pleadings, 2) the two secret documents sent by
Wal-Mart directly to the Examiner [ i.e. the “attendance record” and “exit interview” 3)
Wal-Mart’s secret “call-out list” that she “just printed out” in the middle of a telephone
hearing and from which she drew her testimony that “others called out that day”.
Second claim dated 12/4//2011 f“EB” claim!. Third Claim dated 3/11/2012. Fourth
Claim dated 12/30/2012
Petitioner’s complaint about his Second, Third, and Fourth claims were all the same
issue: NJDOL state actors cited no state law law when it arbitrarily decided that the
$13,000 Petitioner received as a settlement in a Law Against Discrimination lawsuit
against Wal-Mart could not be used to establish a UI monetary entitlement. The fact
that the same offense occurred across all three claims evidences an ongoing
unconstitutional NJDOL practice. Even when presented with a W2 at the Appeals
Tribunal Proceedings NJDOL state actors stated in all 3 decisions stated that settlement
funds from lawsuits “do not constitute wages” without stating any New Jersey law.
Respondents’ made a de facto admission that no law was stated when they readily
volunteered a purported New Jersey law in their Motion For Summary Judgment some
-7-

8 years after the fact:
“Plaintiff disagrees with the Appeal Tribunal finding that the
settlement monies that he received did not constitute wages.
Despite his disagreement, the Appeal Tribunal’s finding that
the settlement monies did not constitute wages is consistent
with case law. See Sang-Hoon Kim v. Monmouth College,
320 N.J. Super. 157,160 (Law Div. 1998) (finding that the
Plaintiff’s award of damages did not constitute “wages”
because the award was for a period of time that plaintiff was
no longer employed by or performing services for the
Defendant).” [ App. infra 136a ] [ D.E. 233-2 Filed: 6/21/19
Page 19 of 28 Pageld:2538 ]
The case cited is a New Jersey case of first impression. It was clear in that case that
Sang-Hoon Kim’s settlement agreement compensated the plaintiff for the period
following his termination until the time of trial. That was not the case here. WalMart in the settlement agreement stated:
“($13000.00) shall be made payable as wage based
compensatory damages to CUSTIN,for which a W2
shall be issued” [ document is sealed by the District Court ]
The compensation was paid specifically for the period when Petitioner was
employed at Wal-Mart. The case law in Sang-Hoon Kim is applied to the claim
dated 4/25/2010 it would actually support a finding that the state underpaid my
claim in the amount of $4,143.62. If the New Jersey case law in Sang-Hoon Kim is
applied to the claim dated 4/25/2010 it would actually support a finding that the state
underpaid Petitioner’s claim in the amount of $4,143.62. If the New Jersey case law
in Sang-Hoon Kim was the law that should have been stated in the three Appeals
Tribunal decisions on Petitioner’s Second, Third, and Fourth claims then the state
-8-

—----------

actors should have declared that it underpaid Petitioner’s 4/25/2010 claim and paid
to Petitioner in the amount of $4,143.62 ( $159.37 underpaid per week X

26

weeks ) at the time Petitioner’s EUC08 benefits ran out — which was around the
same time Petitioner filed for EB ( 12/4/2011 ) - a time when the funds were most
urgently needed. Instead Wirth’s deputies arbitrarily decided that discrimination
settlement funds “do not constitute wages” for determining a monetary entitlement
for UI benefits and paid Petitioner nothing.
B. Procedural Background:
There were 3 District Court orders associated with this appeal.
The first Opinion dated 1/31/2014 dismissed the federal defendants with prejudice
as the The District Court held that Petitioner lacked standing on the challenge to the
Secretary’s certification of New Jersey but Petitioner did have standing on the
challenge to CFR 615.8(c)(2) but the statute of limitations on had run on
Petitioner’s constitutionality challenge to the law which disqualified Petitioner from
EB benefits staked solely upon the outcome of the Petitioner’s unfair 6/28/2010
Appeals Tribunal proceeding.
The second Opinion dated 3/22/2016 had a significant impact on the course of
discovery in this matter and impacts directly on the Fourth question presented and
argument raised below in this petition on the misrepresentation made by
Respondents’ attorney to a court of law that resulted in substantial prejudice to
Petitioner. The Opinion stated that NJDOL has Eleventh Amendment sovereign
immunity from a lawsuit but that Petitioner’s lawsuit could proceed as a lawsuit against
- ———------ ------ --------—--9-

the Individuals subject to the issue of the Respondents’ qualified immunity at Summary
Judgment and that discovery was essential to determining if the Respondents violated
clearly established law:
“I will deny the Motion To Dismiss the complaint on qualified
immunity, but without prejudice to reassertion of qualified
immunity via a Motion For Summary Judgment” [ App. infra 42a ].
The Opinion also dismissed “all claims under the Social Security Act” only
referencing the “when due” section of the statute 42 U.S.C. §503 (a)(1) without
discussing at all the basis for its holding in regard to the fair hearing requirement
section 42 U.S.C.§503(a)(3) which Petitioner sued under. Although Petitioner raised
the issue on appeal those appeals issues were not addressed by either the District
Court or the Third Circuit and remain not disposed.
Respondents saw the The 3/22/2016 decision as an opportunity to avoid disclosure
in both Rule 45 and party discovery.
Most significantly — and contrary to this court’s precedent - The Respondents took it
upon themselves to interpret the March 22 2016 order dismissing NJDOL under
Eleventh Amendment state sovereign immunity as an order also meaning that all
claims against the Defendants for the unconstitutional acts they inflicted in their
official capacities were also dismissed. Respondents even purported that the
3/22/2016 District Court order and that the service of document subpoenas upon its
non-party Custodians of Records were invalid “because they are directed at
NJDOL”. Respondents used the same erroneous legal predicate to block Petitioner’s
6/30/2017 and 12/14/2017 discovery that was still outstanding. On 1/16/2018 the
-T0~

state Defendants wrote a letter to the Magistrate:
“Plaintiff’s December 14, 2017 submission is essentially a
rehashing of his June 21st discovery requests . Plaintiff’s
requests were all directed to the state or to the individual
Defendants in their official capacities, which have been
dismissed with prejudice...it is respectfully requested that the
court deny Plaintiff’s discovery requests set forth in his
12/14/2017 submission.” [App. infra 131a].
On 3/6/2018 The Magistrate used the the Respondents’ certifications in the 1/16/2018
[App. infra 130a-131a ] and 3/5/2018 [App. infra 132a-133a ] letters to strike down
all of Petitioner’s lawful 12/14/2017 discovery requests as being “moot” because
opposing attorney was “an officer of the court” [ App. infra 72a] . On 3/16/2018
Petitioner filed a Rule 52 objection to the Magistrate’s 3/6/2018 order objecting that
the order made no sense — even if arguendo the Respondents did produce all the
Production documents requested — [ which it did not ] — the certification would still be
a misrepresentation because the certification could not possibly also apply to
Respondents having answering interrogatories and admissions requests as they do not
involve a production. On 6/21/2019 the Respondents filed their Motion For Summary
Judgment.
The Third Opinion dated 3/25/2020 granted Summary Judgment to the Respondents in the
Opinion Below. Petitioner filed a timely appeal to the Third Circuit and the Third Circuit
issued its Opinion on 3/4/2021 and upheld the District Court. This timely Petition for Writ of
Certiorari ensued.
REASONS FOR GRANTING THE WRIT
A. The standard of review for constitutional due process employed by the Third

il

Circuit’s holding in Custin is cannot be squared with the Tenth Circuit’s holding
in Shaw v. Valdez
The Opinions below rely on a novel quantum level standard in Custin ( affirmed by
the Third Circuit ) for constitutional due process. In review the Opinions below pose
only a single question in review of whether this Petitioner was given a notice and
whether or not a forum was provided to Petitioner that he participated in - and that the
mere participation or even simple availability of a forum “defeats a due process
claim”. An even narrower standard is suggested in the Opinion below when the
District Court comments that the Respondents did not “interfere” with the processes
given and since they did not then that was all the process that was due:
“he also had the ability to appeal the findings of that
hearing multiple times, ultimately to an independent
judicial forum. Because the state Defendants did not
interfere with Custin’s right to that process, he cannot
succeed in claiming they deprived him of it” [ App. infra 33a]
That standard cannot be reconciled with the The Tenth Circuit’s holding in Shaw set a
much broader standard:
“We think Shaw was entitled, as a matter of right,
to know in advance all of the factual and legal
issues that would be presented
at the hearing.” Shaw v. Valdez, 819 F.2d 965 (10th Cir. 1987)
The Shaw Court in sharp contrast begins its review asking if Plaintiff Shaw was
informed in enough detail by the notice to be able to prepare an adequate defense.
Under the Shaw standard for constitutional due process even the notice itselffalls
under the scope of review. Petitioner’s issue raised in the First Question Presented
- 12-

never falls within the scope of the District Court’s standard. That issue was that
NJDOL state actors may have had had a customary practice of initiating an automatic
misconduct charge that the employer never raises in its protest letter stacking the
Notice with “all the factual matters” as to the reason for the claimant’s separation i.e.
that the claimant both quit and was fired at the same time. Similarly Plaintiff Shaw
faced a generic notice that:
“All issues and factual matters affecting claimant's eligibility
and qualifications for benefits will be heard under Chapter
8 of the Colorado Revised Statutes of 1973, as amended”
Therefore both Custin and Shaw faced a defective Notice prepared by state actors
and not the “appealed issue” that the employer stated in the protest letter. When a
state employment agency withholds the protest letter it is impossible for the claimant
to detect what the employer’s precise “appealed issue” is. Even more importantly the
Shaw court found that even if Plaintiff Shaw somehow could have obtained a copy
of the protest letter that still would not be enough to insure due process if the
employer raises new issues at the hearing that are not the “appealed issue” in the
protest letter. To prevent this the Shaw court suggested that the pleadings in the
protest letter should be frozen and parties advised that there will be no new issues
allowed to be raised at the appeal hearing. In the case of both Plaintiff Shaw and
Plaintiff Custin this was critical as the employer raised new issues at the appeal
hearing that were not the “appealed issue” in the protest letter.
Had the Shaw standard been applied Petitioner would have been given the forum that
due process requires: a forum where the claimant is made aware of the employers
- 13 -

pleadings before the hearing and confronts only those same pleadings at the appeal
hearing.
B. THE OPINIONS BELOW CIRCUMVENT AND CONFLICT WITH THIS
COURT’S PRECEDENT
1. In regard to the First and Second Questions Presented about Petitioner’s First UI claim:
This court has held:
“the notice must be both timely and adequate, given within a reasonable
time prior to the taking of any action, and specifying the proposed action
and the grounds therefore, indicating the information needed to determine
eligibility, and advising the recipient of the right to be heard and to be
represented by counsel. Moreover, there must be full and complete
disclosure of the information upon which the proposed action is based.'''’
at page 856. [Emphasis added.] Pregent v. New Hampshire Dept, of
Employment Security, 361 F. Supp.782 (1973), vacated 417 U.S. 903, 94
S.Ct. 2595, 41 L.Ed.2d 207 (1974) quoting Caldwell v. Laupheimer, 311 F.
Supp. 853 (E.D.Pa. 1969)
The Opinions Below conflict with this court’s holding above that constitutional due process
requires that there must be full disclosure of the information on which the action is going to
be based. Here Petitioner was never informed that his employer’s only pleading was that
Petitioner “was the moving party in the separation”. Discharge for misconduct was never
raised by Wal-Mart until the appeal hearing when it switched its appealed issue.
Compounding the due process offense were the use of secret documents at the appeal hearing
without giving Petitioner a copy before the hearing. There was no disclosure here at all.
The Withholding of the Wal-Mart’s pleadings in the 5/24/2010 Wal-Mart protest letter
The most important of all these secret documents were the pleadings containing Wal-Mart’s
only appealed issue: “voluntary leaving” in the form of the 5/24/2010 Wal-Mart protest letter

- 14-

and the Kafkaesque allegation it contained that Petitioner “was the moving party in the
separation” and “abandoned his job” some 21 days after Timco terminated him (the protest
letter alleged Petitioner was a “no call...no show” from 5/17/2010 to 5/23/2010 [ App. infra
93a ] . The record shows Petitioner’“MC” date was 4/26/2010 [App. infra 85a ]). A
reasonable NJDOL official would have disallowed the appeal on its face based on those
allegations. Even having had the benefit of the record before it that the initial claims
examiner had defaulted the “misconduct connected to the work” charge because Wal-Mart
“had no reply to our detailed questions” [ Ibid. ] - instead of dismissing the appeal NJDOL
state actors prepared a Kafkaesque Notice that not only was Petitioner fired for misconduct but that he also was the moving party in the separation and “abandoned his job”. Since the
Notice covered all the possible reasons for the separation [ one of which had not been pleaded
] the Notice was fundamentally the same generic Notice given to Plaintiff Shaw: “All issues
and factual matters affecting claimant's eligibility and qualifications for benefits will be
heard” that the Tenth Circuit found to be defective and tantamount to “no notice at all”. In the
case of Custin the Tribunal found on the charge the employer never pleaded.
The secret documents: attendance record, exit interview, “call out list”
Compounding the due process offense of customarily withholding the pleadings from a
claimants’ discovery was the NJDOL state actors’ unconstitutional practice of gaining access
to or receiving secret employer documents and then not offering a viewing and/or offering an
opportunity for rebuttal or not sending a copy of the documents obtained to the claimant
before the hearing as required by the state statute in the citations below. Petitioner is in the
record seeking discovery on a second instance of this unconstitutional offense [ App. infra
-15-

155a] and Defendants have not shown Petitioner could not produce the second instance as a
witness at trial.
Attached to the 5/24/2010 protest letter letter and the 6/25/2010 fax directly to the Tribunal
Examiner informing the Examiner that Wal-Mart intended to use those secret documents as
exhibits against Petitioner. The Opinions below claim these documents were “superfluous”
when they were necessary to a responsive defense to impeach the credibility of the HR
Manager’s testimony. That testimony claimed that the first contact the store had with
Petitioner about his illness was on 5/23/2010 the last day of “the five days”. Had Petitioner
been given a copy of that record before the hearing a responsive defense would have
impeached that testimony with the fact that the attendance record shows reason codes that are
not “no call...no show” prior to those “five days” that would support that the store had knew
about Petitioner’s illness well before 5/23/2010 and had used the hotline to do so. Had
Petitioner been given a copy of the “attendance record” before the hearing he could have
confronted the HR Manager with the fact Wal-Mart had changed the LDW date in the exit
interview to the day just before “the five days” to cover up Petitioner’s successful call outs
prior to “the five days” when the phone system was working, why the store scheduled Timco
off the day she was supposed to testify, that Petitioner never spoke to Timco, and that Timco
did not terminate Petitioner. Timco was necessary to confront the HR Manager’s testimony in
cross examination which is why Wal-Mart scheduled her off and the HR Manager appeared
instead.
2. In regard to the Third Question Presented that is in regard to Petitioner’s second, third, and
fourth UI claims:
-16-

The Opinions Below claim that Petitioner must have had to exhaust all of his state remedies
before he sought relief raising a classic Fourteenth Amendment federal question in the New :
Jersey District Court in regard to his second, third and fourth UI claims:
“the because he did not take advantage of the appeals process available
to him, he cannot claim to have been denied due process” [ App. infra 26a ]
The District Court claims that the processes of the Board of Review processes “was
anything but a sham” because Petitioner had the ability to participate in those processes.
Even with thelimited discovery permitted in this case the results of such discovery does
nothing but confirm that those Board of Review processes not only were a sham but
resemble something out of Kafka. Petitioner has a certification from Respondents’ attorney
that:
“there are no agenda or minutes Board of Review exist
or ever existed for your case 284,329”. [ App. infra 112a]
At a minimum such accounting was required under the New Jersey Open Public Meetings
Law. The certification above shows that there is no evidence at all that the Board of Review
ever met at all to decide Petitioner’s appeal. It may well have been decided by the unknown
“reviewer”[ the name is illegible ] who did a “Pre-Hearing review”. [App. infra llOa-llla ].
The Notice of Appeal Petitioner received for the Board of Review claimed:
“If the appeal is timely, The Board will evaluate the entire record
including the cassette recording(s) of the Appeal Tribunal hearing
and any written arguments submitted.” [App. infra 109a ]
Petitioner therefore then had every reason to believe that appeal to the Board of Review
would be subject to that same defective process and would again be inadequate and so he
-1-7-

sought relief in federal District court and for which he now still seeks justice. The fact that
three Tribunal decisions failed to cite to any state law that LAD settlement funds “does not
constitute wages” raised an immediate federal question of due process under the Fourteenth
Amendment. The Opinions Below therefore directly conflict with this court’s holdings in
Monroe v. Pape, 365 U.S. 167, 81 S.Ct. 473, 5 L.Ed.2d 492 (1961) and in Patsy v. Board of
Regents, 457 U.S. 496 (1982) and McNeese v. Board ofEducation, 373 U.S. 66 (1963). The
Opinions Below attempt to supplant Monroe, Patsy, and McNeese with Third Circuit
contrary holdings in Alvin v. Suzuki 227 F. 3d 107, 116 ( 3rd Cir. 2000 ) and the New Jersey
District Court contrary holding in Akuma v. Comm V of the Dep’t ofLabor and 'Workforce
Dev., No. 07-1058, 2008 WL, 4308229 ( D.N.J. Sept. 17, 2008 ). In attempting to
circumvent this court’s precedent in similar cases by misconstruing Petitioner’s allegations
in the Third Amended Complaint as alleging “random acts” and not as a result of custom or
practice - the Opinions Below violate Article VI, Paragraph 2 of the U.S. Constitution and
warrant review by this court. These state cases are inapplicable as the Plaintiffs did not raise
a federal question. Petitioner’s Third Amended Complaint raised a classic Fourteenth
Amendment federal question in claim #13 and #14 in the Third Amended Complaint that in
the three decisions deciding his 2nd, 3 rd, and 4th claims for UI benefits NJDOL state actors
arbitrarily decided that settlement proceedings in a New Jersey Law Against Discrimination
lawsuit “does not constitute wages” without stating any state law to support it. The three
instances indicate the offensive conduct was a customary practice. Respondents’ attorney
attempted to offer the New Jersey case law case of Sang-Hoon Kim v. Monmouth v.
Monmouth College, 320 N.J. Super. 157,160 (Law Div.1998) some 8 years after the offense
-18-

in their Motion For Summary Judgment. That case is does not support the Tribunal decision
or reasons stated earlier in the statement of the case. Even if it did providing such a law some
eight years after the offense violates the requirement of due process that the process takes
place “in a timely manner” Mathews v. Eldridge, 424 U.S. 319,332 (1976).
This court should also grant writ because the third question presented may well be a case of
first impression for the Supreme Court of the United States and the nation as it was in the
instance in New Jersey of Sang-Hoon Kim v. Monmouth v. Monmouth College, 320 N.J.
Super. 157,160 (Law Div. 1998).
3. In regard to the Fourth Question Presented that is in regard to the requested review on
appeal of Petitioner’s Rule 52 Objection
The Respondents attempted to use an erroneous self serving interpretation of the District
Court’s 3/22/2016 court order as an opportunity to avoid the 2/5/2016 court order:
“plaintiff’s discovery is still directed toward the NJDOL or the
individual defendants in their official capacities, [ my emphasis ]
both of which were dismissed by the Order dated March 22, 2016
For these reasons, the discovery sought by plaintiff in his letter
dated June21, 2017 should be denied because he seeks discovery
on claims which the court has already dismissed.”
The Respondents’ legal predicate used as a basis for non disclosure conflicts with this court’s
precedent in Hafer v. Merlo 502 U.S. 21( 1991) and Scheuer v. Rhodes, 416 U.S. 232 (1974).
In Scheuer this Court reiterated that states may not immunize officers from suit in federal
court and held a private litigant may sue a state official or employee for damages for actions
that employee took in his individual capacity. In Hafer this court held that:
“the phrase ‘acting in their official capacities’ is best understood as
a reference to the capacity in which the state officer is sued, not
-19-

the capacity in which the officer inflicts the alleged injury",
Hafer, supra, Pp 3-5.
In an attempt escape their duty to fully disclose In fact, the Respondents used the same exact
argument as did Plaintiff Hafer that this court dismissed some 30 years ago:
“Hafer seeks to overcome the distinction between official and
personal-capacity suits by arguing that § 1983 liability turns
not on the capacity in which state officials are sued, but on the
capacity in which they acted when injuring the plaintiff.”[ Ibid.]
Proof that Respondents used Hafer’s argument in order to gut the substantive claims in the
Third Amended Complaint is evidenced in Respondents 7/6/2017 letter to the Magistrate
objecting to Petitioner’s re-served 9/28/2015 Fourth Set of discovery requests they were still
in default of:
“Plaintiffs letter contains eighteen proposed requests for admissions
all of which are directed to the NJDOL or to the individual defendants
in official capacities. Every topic of the requests for admissions asks
the “state defendants” to admit or deny information pertaining to
the defendants’ official duties in unemployment claims such as,
officially supervising hearing officers, state fax numbers, handbooks,
transcripts of hearings conducted, and guidelines for hearings.
These should all be denied as the information sought relates to
the individual State Defendants in their official capacities, not in
their individual capacities.” [ App. infra 145a ]
Respondents took it upon themselves to interpret the 3/22/2017 District Court order meaning
that Petitioner’s discovery must direct all discovery to the the time Wirths and the Board of
Review were working off the clock or on a coffee break or home watching TV with a beer in
hand. That the Respondents knew that this infantile view would set a stage devoid of any
official actions and therefore any liability while the Respondents wore a state badge is
-20

illustrated by their use of “if they acted at all”:
“The issue in this case going forward since March 22, 2016
has been the qualified immunity of the individual defendants,
Wirths, Sieber, Yarborough, and Maddow, if they acted at all
in individual capacities, which they did not” [ my emphasis ] [ Ibid.]
The Supreme Court correctly held in Hafer that the Respondents' and Hafer's argument above
is really a claim of absolute immunity in disguise:
“Furthermore, Hafer's distinction cannot be reconciled with
our decisions regarding immunity of government officers
otherwise personally liable for acts done in the course of their
official duties. Her theory would absolutely immunize state
officials from personal liability for acts within their authority
and necessary to fulfilling governmental responsibilities. Yet
our cases do not extend absolute immunity to all officers who
engage in necessaiy official acts”.
Such a view of state Eleventh Amendment immunity would moot the Federal Rules of Civil
Procedure regarding the obligations of a party to fully disclose.
C. THE OPINION BELOW CONFLICTS WITH OTHER COURTS OF LAW
The District Court Opinion Below dated 3/22/2016 dismissed all claims under the Social
Security Act. The was no explanation for for dismissing the fair hearing requirement 42
U.S.C.§ 503 (a)(3). The Judge’s opinion was only discussed the “when due” section of 42
U.S.C.§ 503 (a)(1). In that regard the Opinion was over-broad and runs counter to every other
court of law in similar lawsuits such as Cosby v. Ward, 843 F.2d 967 (7th Cir. 1988), Navato
v, Sletten, 560 F.2d 340 (1977) and Camacho v. Bowling, 562 F. Supp. 1012 (N.D. Ill. 1983).
D. THE OPINIONS BELOW FAILED TO ENFORCE THE LAW AND EXCUSED IT
There is no mention in the Opinions Below that the conduct of the Appeals Tribunal was
- 21 -

patently illegal. The Opinions below either ignore (Third Circuit) or excuse (The District
Court) the patently illegal conduct of tacitly using secret documents not properly noticed or
introduced and then permitting the employer to testify from them violated New Jersey state
statute and a federal agency directive. The Opinions below should have called out the illegal
conduct and enforced the law by denying Summary Judgment. Here is how the New Jersey
District Court enforced the New Jersey law and a federal agency UIPL:
“The Appeal Tribunal process was less than ideal in some respects.
The documents faxed over by Wal-Mart prior to the hearing ought to
have been entered into the record and provided to Custin prior to the
hearing See N.J.A.C. 1:12-14.6(d). But he [ i.e. Petitioner - J.C. ] has
not shown that this error dragged the proceedings below the federal
constitutional floor of due process. And indeed, it is highly unlikely that
these claimed even affected the outcome. The documents were not
necessary to deny his claim.” [ App. infra 31a-32a ]
The above statement made by a federal court of law is reprehensible. It makes up an excuse
for the conduct. Instead of calling out the offense as violating a New Jersey statute that was
enacted by the NJ state Legislature with the express intent to insure due process as part of
New Jersey’s conformity to the “fair hearing” requirement of SSA and the Fourteenth
Amendment - the District court substitutes instead its own opinion of what the law should be
- suggesting the law should be subject to some highly speculative analysis of whether the
offense “affected the outcome” of a Tribunal decision. Courts of law have a duty to enforce
the law. The Opinion Below that presents the above warrants full review by this court.
E. THE OPINION BELOW IS CLEARLY FACTUALLY WRONG ON THE ISSUE
RAISED IN THE FIRST QUESTION PRESENTED
“Custin was well aware of Wal-Mart’s position that he had been
- 22 -

separated for misconduct.. .The court noted that when Custin
first applied for unemployment benefits, the notice scheduling
an appointment with a claims examiner indicated ‘in bold letters’”
that “the reason for his appointment was that he may have
been separated for misconduct in connection with his work”. IdAt 13-14. It further noted that, when Wal-Mart appealed, Custin
Received a copy of The Notice of Appeal Tribunal hearing, ‘which
Explicitly stated the issues involved were ‘voluntary leaving’ and
‘discharge for misconduct.’ Id. at 13-14. [ Third Circuit quoting N.J.
Superior Court in ECF No. 233-13 at 13. ] [ App. infra 10a ].
Two documents fly in the face of the Opinion Below and the Superior Court’s Opinion that it
parrots without any analysis. First is the 7/6/2010 decision of the Appeals Tribunal, raised in
the First Question Presented:
“the employer contends that the claimant voluntarily left
the job without good cause attributable to the work. There
were no other issues disputed by the appellant employer”.

[App. infra 103a ]
Corroborating that “there were no other issues disputed” by Wal-Mart other than the
“voluntary leaving” issue are the pleadings in the 5/24/2010 protest letter from Ramzie
Siebuhr of Equifax Workforce Solutions:
“This is in reference to form BC26BF, Notice of Determination,
dated May 13, 2010 which allows benefits to the above individual.
We wish to appeal the determination based on the following. The
claimant is considered to have abandoned his job after failing to
return to work. The claimant did not call or show up for work
From 5/17-5/23...Our records indicate that claimant quit without
good cause attributable to the employer. Benefits should be denied,
as the claimant was the moving party in this separation and has not
established good cause” [ App. infra 93a ]
None of the above can serve as evidence that the misconduct charge originated from Wal-Mart.
Both The Notice of the Initial Claims hearing and the 6/17/2010 Appeals Tribunal “Notice of
A Telephone Hearing “were prepared by NJDOL state actors - not Wal-Mart. The only

-23-

document that did originate from Wal-Mart was the secret 5/24/2010 protest letter of its UI
agent to the Appeals Tribunal and that letter specifically stated that Wal-Mart’s appealed
issue was “voluntary leaving”, that Petitioner was the moving party in the separation having
“abandoned his job”.
F. PROOF THAT RESPONDENTS ATTORNEY MADE A MISREPRESENTATION
TO A COURT OF LAW THAT THE COURT RELIED ON THAT RESULTED IN
SUBSTANTIAL PREJUDICE TO PRO SE PETITIONER’S CASE
The only reason given by the Magistrate for blocking the 12/14/2017 discovery requests was
that Respondents’ attorney was “an officer of the court” and that the court relied on her
telling the truth. That was not the case. Respondents’ attorney - as an officer of the court clearly lied.
Petitioner’s 12/14/2017 Production Request # 1 requested:
’’Provide a true and certified transcript of Plaintiff’s initial
telephone hearing that took place on May 10,2010 in regard
to Plaintiff’s 4/25/2010 claim”. [ App. infra 119a ]
Respondents answered:
“Defendants object to this document request because it is
not directed to the Individual Defendants in their personal
capacities. Without waiving said objections, Defendants
state that any documents in their possession that may be
responsive to this request have been produced during
the course of discovery in this matter.” [App. infra 120a ].
Nowhere to be found in the entire 190 page stack produced by Respondents on
7/13/2017[ D.E. 231 ] is the requested transcript or the recorded proceedings nor was it ever

-24-

produced earlier. That the Respondents are in possession of the requested document there can
be no doubt. Proof that it exists is in the initial claims examiner’s notes which shows that the
Respondents were in possession of the .wav file for this proceeding as file “110401116_custin_john_by_239.dct.wav” [App. infra 85a].
G. THE REQUESTED 12/14/2017 DISCOVERY WAS ESSENTIAL TO
PETITIONER’S CASE
Since the 11/15/2017 text court order [ App. Infra 71a ] required Petitioner to link each
request to a claim in the Third Amended Complaint it should be self evident that the
requested discovery to Petitioner’s case was essential to his case. Interrogatories #1 - #6 and
Admissions Requests #20 - #22 were critical to the issue raised in the First Question
Presented in determining what entity originated the “misconduct” charge. Admission
Request #25 sought the Respondents to attest to the genuineness of the 6/24/2010 Wal-Mart
protest letter and the secret documents attached to it, Request # 24 sought the same for the
6/25/2010 secret fax to the assigned hearing Examiner, Admissions Requests 26-30 sought
information about the unconstitutional customary practice of NJDOL state actors sending out
FORM BC-9 “Appointment” Notice with no time and date printed on it, Admissions Request
#29 and #30 sought Respondents attest to the two FORM BC-9’s he received with no time
and date printed on them that the Respondents certified they keep no copies of. [ App. infra
117a],

-25-

H. THE THIRD CIRCUIT OPINION BELOW RELIES ON THE RESPONDENTS’
BIG LIE AND IT CONFLICTS WITH THE DISTRICT COURT ON
RESPONDENTS’ KEY MATERIAL FACT ABOUT THE HR MANAGER’S
TESTIMONY
The the Opinion Below of the Third Circuit warrants review by this court because it parroted
the Respondents’ “Big Lie”:
“A personnel manager from Wal-Mart testified that Custin was discharged
from employment because he violated the company’s callout policy by
failing to notify Wal-Mart of his absences for five consecutive days that
he was scheduled to work in April 20\0.. The manager testified that there
were no problems reported with the phone system and other employees
properly called out on those days” [ App. infra 8a-9a ]
Surprisingly it was the District Court that properly called out the Respondents for
misrepresenting what Wal-Mart’s Store HR Officer had testified to:
“There is potential ambiguity as to ‘that day’. State Defendants
claim that Shuck testified that there were no other issues reported
“on each of those days (App. supra DSMF 30 ).That is inaccurate.
Schuck testified that the phone was working on one day in particular,
later stating that she ‘just printed out the list from that day and there
are nine people called out and would be tardy’ It is not clear which
day she is referring to, and Plaintiff claims “that day” is in fact April
26th - the day he was terminated” [ App. infia 17a @f5 ] (PRSMF 142 ).
Therefore the two Opinions below themselves are deeply conflicted as to just what was
testified to by the Wal-Mart HR Manager. The District Court in the Opinion below makes the
correct analysis but failed to draw the necessary conclusion of law that the Respondents’ key
material fact is a misrepresentation as the the record and therefore Respondents failed to meet
their burden of proof in Summary Judgment. Wal-Mart’s HR Manager testifies to one day only
-26-

- not all of “the five days” - and even at that - that one day is ambiguous as to exactly what
day she is referring to.
The Examiner’s 7/6/2010 decision also violated the “critical Fair Hearing and Due Process”
indice # 25 stated in UIPL 10-96 that a Tribunal’s finding of fact must be based “on evidence
in the record that is of sufficient quality and quantity to substantial” to support its findings.
[ see App. infra 134a ]. Substantial evidence is “such relevant evidence as a reasonable mind
might accept as adequate to support a conclusion." Richardson v. Perales, 402 U.S. 389
(1971). No reasonable mind could come to support the Tribunal Officer’s finding that the
phone line was working for all five days Petitioner was purported to be a “no call...no show”
when the transcript shows that Wal-Mart's HR Manager refers to a single day she refers to as
“that day” - not five days - and even at that the single “that day” is ambiguous as to what
specific day she is referring. Petitioner says at that point in the transcript the discussion is
focused about April 26th - and from the context of the conversation therefore that was the
date she was referencing.
The Respondents made this “Big Lie” their key material fact in their Statement of
Undisputed Material Facts:
“30. The personnel manager testified that there were no problems
reported with Wal-Mart’s 1-800 phone system during the five
days that Plaintiff was absent and that other employees properly
called out on each of thosedays. (Ex. F at 20).” [ App. infra 124a ] [ DSMF
D.E. 233-1 at 130]
“Plaintiff’s testimony was also refuted by the Employer, who testified
that no problems were reported with Wal-Mart’s phone system and
that other employees were all able to call the 1-800 number on the
five days that Plaintiff was absent[App. infra 125a], [ Defs’Brf. MFSJ D.E.
-27-

233-2 at p.14].
The above misrepresentations warrant review and sanctions by this court.
I. THE OPINIONS BELOW DO NOT RENDER THE REQUIRED JUDICIAL
DEFERENCE TO FEDERAL ADMINISTRATIVE LAW IN A CASE ABOUT
A FEDERALLY SPONSORED PROGRAM
In its Opinion below The District Court wrote:
“Custin has not provided, nor can I discover, any authority
in the circuit that defines the process constitutionally
required in connection with a denial of unemployment
benefits.” [ App., infra 25a ]
The statement above by the District Court affirms that it only looked for intra-circuit law and
finding none applied the inapplicable Third Circuit Paratt analogs. It should have given the
required

deference to federal agency directives where a complex federally sponsored

program is the subject matter under review. Departmental directives setting forth
interpretative rules are entitled to deference in judicial proceedings. British Caledonian
Airways, Ltd. v. C.A.B., 584 F.2d 982 (D.C. Cir. 1978), is a leading case concerning the use
of interpretative rules. The court stated that the agency was "construing the language and
intent of the existing statute and regulations in order to remove uncertainty "which is a
function peculiarly within the ability and expertise of the agency." Id- at 991. In Skidmore v.
Swift & Co., 323 U.S. 134, 139-140 (1944), the Supreme Court noted that an agency's
interpretative bulletins and informal rulings provided a practical guide which constituted "a
body of experience and informed judgment to which courts and litigants may properly resort
for guidance." Id. At 140. The Supreme Court has consistently affirmed the principle of
-28-

judicial deference to administrative interpretations, in Martin v. OSHRC, 111 S.Ct.
1171, ,1179 (1991). See Chevron U.S.A. Inc. v. Natural Resources Defense Council, Inc., 467
U.S. 837, 844, reh. den, 468 U.S. 1227 (1994). Furthermore, the U.S. Court of Appeals for the
D.C. Circuit decided that an agency's own assertion that its order is purely interpretative is
entitled to a significant degree of credence. British Caledonian, 584 F.2d at 992.
Congress, in creating the Social Security Act

gave the U.S. Department of Labor

responsibility for the oversight of the quality of the States' unemployment insurance (UI)
appellate processes and insuring state conformity to federal minimum standards for state
conformity to the “fair hearing” requirement. The District Court could have found the “floor”
it was seeking in USDOL ETA UIPL 10-96. The relevant sections are in the Table of Citations
below:
“The record should reflect that the parties had an opportunity to
review the exhibits prior to their being received into evidence.
The hearing officer may state “I have allowed the parties to read
the letter I marked as Exhibit 1?”. The record must
affirmatively show that the parties were given the opportunity
to examine the documents” [ App. infra 108a ]
A check of the transcript of the 6/28/2010 proceeding shows that the Examiner did not do the
above.
In addition:
“It is important to realize that the Hearing Officer cannot consider
in his/her decision-making process any document that was not
properly entered” [ Ibid.].
There can be no doubt that the Appeals Tribunal Examiner used the Wal-Mart HR
Manager’s testimony from the secret “call-out list” that she “just printed out” in the middle of
-29-

the proceedings. There can also be no doubt that if the HR Manager had not been allowed to
testify to the information in the secret attendance record and exit interview documents then
Wal-Mart would not have been able to reconstruct its pleadings at the appeal hearing.
J. THE OPINIONS BELOW DID NOT DISPOSE OF ALL THE ISSUES RAISED
ON APPEAL
Neither the District Court or the Third Circuit court settled the issue of the requested
injunction against NJDOL state actors sending out to claimants FORM BC-9 with no time
and date printed on it; the issue of the 3/22/2016 District Court Opinion having dismissed all
claims under SSA including the fair hearing requirement without any discussion.
K. THE QUESTIONS PRESENTED ARE IMPORTANT
The First Question presented: The due process right of confrontation demands that claimants
have a right to know the identity of the entity originating the charge, and a copy of the precise
pleadings in the employer’s protest letter so that that they do not face charges at the appeal
hearing that the employer never made. Loss of COBRA health insurance should not be the
result of an unconstitutional practice. The Question Presented is of national importance as
health insurance is the focus of national debate
The Second Question presented: the notice is important and is a recurring issue as
evidenced by Plaintiff Shaw - a UI claimant who faced the same Notice as Petitioner
containing all the possibilities of separation. UI claimants all over the country face the issue
of stacked notices that present them with a legal dilemma on which they must stake a defense
of their claim and have to guess as to which one will be actually be used by the employer.

-30-

The Third Question Presented: is important because it may be a UI case of first instance
. for the nation. It is important that funds received from a lawsuit against discrimination be
treated as ordinary income as it is compensation for an unjust act while a person was
employed.
The Fourth Question Presented is important because of the serious nature of the offense. A
litigant should not have his case prejudiced because opposing attorney made made
multiple misrepresentations to a court of law and that the court relied on. Such warrants
review and sanctions.
CONCLUSION
The Writ should be granted for all the above reasons.
Respectfully submitted,

John M. Custin Dated: July 28th, 2021
ProSe
P.O. Box 5631
Christiansted, VI 00823
e mail: jocustl00@yahoo.com
telephone: 340-201-3318

—31—

